<html>
<title> - RAPE IN THE UNITED STATES: THE CHRONIC FAILURE TO REPORT AND INVESTIGATE RAPE CASES</title>
<body><pre>[Senate Hearing 111-891]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-891

     RAPE IN THE UNITED STATES: THE CHRONIC FAILURE TO REPORT AND 
                         INVESTIGATE RAPE CASES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2010

                               __________

                          Serial No. J-111-107

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
  64-687 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
ARLEN SPECTER, Pennsylvania          JON KYL, Arizona
CHARLES E. SCHUMER, New York         LINDSEY GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         TOM COBURN, Oklahoma
SHELDON WHITEHOUSE, Rhode Island
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
             Brian A. Benzcowski, Republican Staff Director
                                 ------                                

                    Subcommittee on Crime and Drugs

                 ARLEN SPECTER, Pennsylvania, Chairman
HERB KOHL, Wisconsin                 LINDSEY GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
BENJAMIN L. CARDIN, Maryland
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
               Hannibal Kemerer, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   132
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Berkowitz, Scott, President and Founder, Rape, Abuse, and Incest 
  National Network (RAINN, Washington, DC........................    28
Carbon, Susan B., Director, Office on Violence Against Women, 
  U.S. Department of Justice, Washington, DC.....................     2
Dempsey, Michelle Madden, Associate Professor of Law, Villanova 
  University School of Law, Villanova, Pennsylvania..............    32
Kilpatrick, Dean G., Distinguished University Professor, Vice 
  Chair for Education, Department of Psychiatry, Director, 
  National Crime Victims Research & Treatment Center, Medical 
  University of South Carolina, Charleston, South Carolina.......    26
Ramsey, Charles H., Commissioner, Philadelphia Police Department, 
  Philadelphia, Pennsylvania.....................................    14
Ravira, LaWanda, Director, National Council on Crime and 
  delinquency, Center for Girls and Young Women, Jacksonville, 
  Florida........................................................    21
Reedy, Sara R., Bulter Pennsylvania..............................    16
Smeal, Eleanor Cutri, Feminist Majority Foundation, Arlington, 
  Virginia.......................................................    30
Tracy Carol E., Women's Law Project, Philadelphia, Pennsylvania..    12
Weil, Julie, Jupiter, Florida....................................    18

                         QUESTIONS AND ANSWERS

Responses of Susan B. Carbon to questions submitted by Senator 
  Specter........................................................    37

                       SUBMISSIONS FOR THE RECORD

Berkowitz, Scott, President and Founder, Rape, Abuse, and Incest 
  National Network (RAINN, Washington, DC, statement.............    43
Carbon, Susan B., Director, Office on Violence Against Women, 
  U.S. Department of Justice, Washington, DC, statement..........    55
Dempsey, Michelle Madden, Associate Professor of Law, Villanova 
  University School of Law, Villanova, Pennsylvania, statement 
  and attachment.................................................    67
Kilpatrick, Dean G., Distinguished University Professor, Vice 
  Chair for Education, Department of Psychiatry, Director, 
  National Crime Victims Research & Treatment Center, Medical 
  University of South Carolina, Charleston, South Carolina, 
  statement and attachment.......................................    82
Ramsey, Charles H., Commissioner, Philadelphia Police Department, 
  Philadelphia, Pennsylvania, statement..........................   133
Ravira, LaWanda, Director, National Council on Crime and 
  Delinquency, Center for Girls and Young Women, Jacksonville, 
  Florida, statement.............................................   136
Reedy, Sara R., Bulter Pennsylvania, statement...................   147
Rumburg, Delilah, Executive Director, Pennsylvania Coalition 
  Against Rape, National Sexual Violence Resource Center, Enola, 
  Pennsylvania, statement........................................   227
Smeal, Eleanor Cutri, Feminist Majority Foundation, Arlington, 
  Virginia, statement............................................   237
Tracy Carol E., Women's Law Project, Philadelphia, Pennsylvania, 
  statement and attachment.......................................   245
Weil, Julie, Jupiter, Florida, statement.........................   267

 
     RAPE IN THE UNITED STATES: THE CHRONIC FAILURE TO REPORT AND 
                         INVESTIGATE RAPE CASES

                              ----------                              

                TUESDAY, SEPTEMBER 14, 2010
                                       U.S. Senate,
                           Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                            Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:25 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Arlen 
Specter, Chairman of the Subcommittee, presiding.
    Present: Senators Specter, Cardin, and Klobuchar.
    Also Present: Senator Franken.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good afternoon, ladies and gentlemen. The 
Criminal Law Subcommittee will now proceed with the hearing on 
the subject of rape.
    This hearing has been requested by the Women's Law Project 
following an extensive series of articles by newspapers in many 
leading United States cities commenting about the inaccuracies 
on reports of rape, raising serious questions as to whether 
there are adequate steps being taken by police departments to 
catalogue the complaints, to investigate them, and to make the 
determination when rape, in fact, occurred.
    The statistics are staggering. Over 20 million women, or 18 
percent of all women in the United States, have been victims of 
rape, and each year approximately 1,100,000 more women are 
victims of rape. The statistics show that 28 percent of the 
forcible rapes have victims under the age of 12, and 27 percent 
of forcible rape victims are in the ages of 12 to 17. 
Reportedly, only 18 percent of forcible rapes are reported to 
the police.
    When I took a look at these statistics, I wondered how they 
were gathered and how accurate they were on a subject this 
sensitive. And I am advised that the studies conducted in 1990 
and the year 2005, the National Women's Study and the National 
Women's Study Replication, are reliable statistics following 
state-of-the-art survey techniques when interviewing women that 
are markedly more sensitive and accurate than used in other 
surveys, including the Government's National Crime 
Victimization Survey.
    There have been a series of articles in the major United 
States newspapers: the Philadelphia Inquirer, the Baltimore 
Sun, the St. Louis Post-Dispatch, the New York Times, the New 
Orleans Times-Picayune, the Village Voice, and This American 
Life on National Public Radio. The Philadelphia experience 
showed that there were approximately one-third of all sex 
crimes reported in Philadelphia which were not investigated by 
the police, that there was an audit conducted, and it showed 
that some 2,300 sexual assault cases had been incorrectly 
handled. The Philadelphia Police Department changed their 
approach to bring in women's advocacy groups to review the 
files using transparency and requiring that, before a matter 
was reported as unfounded, it be filed by two police officers.
    As I have taken a look at these statistics, I found that 
times have not changed very much since the days when I was an 
assistant district attorney some years ago. And when I was 
elected district attorney in 1965, I instituted a change in 
procedures and established a special rape unit. At that time 
rape complainants were interviewed in a regular detective room 
where they had a series of a dozen or more desks. Witnesses 
were interviewed within hearing range of many, many other 
people, not very conducive to telling about an incident like 
being the victim of a rape. And I changed that policy to have 
interviews privately conducted.
    At that time there were no photographs taken to preserve 
evidence of trauma, no brushings on the issue of pubic hair, 
and a great many changes were undertaken. And it looks to me 
like it is still a big, big issue, so we are moving ahead with 
this hearing this afternoon to focus public attention to see 
what is going on and to see what changes ought to be made.
    For starters, I note that the definition of rape which is 
being used by the FBI is antiquated, not inclusive as where it 
ought to be.
    I will turn now to our first witness who is the Director of 
the Department of Justice's Office on Violence Against Women. 
In this role, she serves as liaison between the Department and 
Federal and State governments on crimes of domestic violence, 
sexual assault, dating violence, and stalking. She likes to be 
called director as opposed to judge, but she is the supervisory 
judge of the New Hampshire Judicial Family Branch and has been 
since 1996, a member of the Governor's Commission on Domestic 
and Sexual Violence, and chaired New Hampshire's Domestic 
Violence Fatality Review Committee; a graduate of the 
University of Wisconsin and DePaul University College of law.
    Welcome, Director Carbon. The floor is yours for 5 minutes.

STATEMENT OF HON. SUSAN B. CARBON, DIRECTOR, OFFICE ON VIOLENCE 
   AGAINST WOMEN, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Ms. Carbon. Good afternoon, Senator Specter. It is an honor 
to be here this afternoon. I would like to thank you and I 
would like to thank the Committee for conducting this hearing 
today to draw attention to the dehumanizing issue of sexual 
assault and how this dangerous crime is treated in our country.
    As the Committee knows well, sexual assault is a complex 
crime that affects every sector of our society. Children--girls 
and boys--are molested by family members; college freshmen are 
date raped; and the elderly are attacked in their homes. Sexual 
assault knows no gender, geographic location, race, ethnicity, 
sexual orientation. None of us is immune, but all of us are 
responsible to end it.
    The challenge that we face is to meet the needs of an 
incredibly diverse population of victims while at the same time 
prosecuting offenders for these heinous crimes. A fundamental 
obstacle to addressing sexual assault is the reluctance to talk 
about it. We are uncomfortable talking about incest or thinking 
that our grandmothers could be raped. Myths and misconceptions 
abound, not the least of which is that real rape is committed 
only by strangers wielding weapons in dark alleys. To the 
contrary, most victims know their attackers, no weapons are 
used, and alcohol and drugs are frequently involved.
    These misconceptions do not stop at the doors of the police 
department, the prosecutor's office, or the courtroom. They 
impact the way that all of us respond to sexual violence, and 
this must be changed.
    To bring justice for victims and accountability for 
perpetrators, we must move the national conscience through 
meaningful dialog. Today's hearing is a step in the right 
direction, and we commend the U.S. Congress for its leadership 
toward this moral imperative.
    In my testimony today, I hope to provide a broader context 
for the scope of sexual assault and our collective responses to 
it.
    First, it is difficult to quantify the crime. Studies use 
different definitions of rape and different data collection 
methods. Some include only forcible rape or only rape that is 
reported to law enforcement.
    Our terminology is confusing as well. Sometimes we talk 
about rape, sometimes sexual assault, other times sexual 
violence. That being said, researchers estimate that about 18 
percent of women in the United States report having been raped 
at some point in their lives.
    For some populations, rapes or sexual violence are even 
higher. Nearly one in three--and I repeat, nearly one in 
three--American Indian or Alaska Native women will be sexually 
assaulted in her lifetime.
    Sexual assault is also one of the most underreported crimes 
in America. The Bureau of Justice Statistics reports that the 
majority of rapes and sexual assaults of women and girls 
between 1992 and 2000 were not reported to law enforcement. 
Reasons for not reporting included fear of not being believed, 
a lack of trust in the criminal justice system, fear of 
retaliation or embarrassment, being too traumatized to report, 
or self-blame and guilt.
    Second, there are dramatic differences in the way that 
police departments, prosecutors' offices, and even courts 
respond to this crime across the country. Some communities have 
highly trained, coordinated teams of primary and secondary 
responders from health, law enforcement, legal, and victims 
services sectors. However, as you are going to be hearing from 
subsequent panels this afternoon, in other places victims are 
subjected to humiliating interrogations and are treated with 
suspicion by law enforcement. Collected evidence may sit for 
months or even years without being analyzed. In some areas of 
the country, there simply are no services.
    It is a matter of absolute national integrity that we 
improve the criminal justice response to sexual violence. But 
let me be clear when I say so. We cannot simply focus on one 
element of the criminal justice system, whether it be law 
enforcement, prosecution, courts, or juries, and expect to fix 
the problem. Instead, we must examine what about our system it 
is that keeps victims from reporting these crimes.
    When the Violence Against Women Act was passed 16 years 
ago, sexual violence was included, but it took a back seat to 
domestic violence. It is time that we devote the same intense 
level of public awareness, services, and training to address 
this insidious problem as we have with domestic violence. 
Victims of sexual assault deserve no less.
    With support from Congress, OVW is funding for its second 
year the Sexual Assault Services Program, the first Federal 
funding stream solely dedicated to providing direct services to 
survivors of sexual assault. We have awareness and prevention 
campaigns and programs on campuses across the country. We also 
have law enforcement training programs, and we are working to 
provide protocols and training for sexual assault nurse 
examiners and training in tribal communities as well. We are 
training advocates, prosecutors, and judges as well, but much 
remains to be done.
    When I started at OVW 5 months ago, I came with a list of 
priorities that I hoped would be embraced by our office and the 
Department, and they have been. At the top of our list are 
prevention and ending sexual violence. We are committed to 
creating a culture where victims are safe to report the crime, 
where they will be treated with respect by all those with whom 
they come into contact, and where perpetrators will be held 
accountable.
    I want to thank the Committee for being at the forefront of 
ensuring that the devastating crime of sexual assault receives 
the serious attention that it deserves. Thank you for your time 
this afternoon.
    [The prepared statement of Ms. Carbon appears as a 
submission for the record.]
    Chairman Specter. Well, thank you, Director Carbon.
    When you talk about reasons for not reporting rape and you 
comment that people are uncomfortable talking about rape, why 
do you think that is so? In our society, where there is so much 
generalized talk about sex and so much that is pervasive even 
in the public media, why should that persist, people being 
embarrassed to talk about this subject?
    Ms. Carbon. You are absolutely right. The subject of sex is 
talked about a lot, but the concept of sexual violence is not 
discussed. People have a hard time understanding the nature of 
sexual violence, and we have a tendency when we talk about it 
to blame the victim for having caused it.
    We have a culture in which in many respects we condone 
violence, and women----
    Chairman Specter. Pause for a moment on the issue of 
concern by the victim that the victim would be charged with 
having caused it. Why should that be the case?
    Ms. Carbon. Let me share, if I may, a story that I recall 
from my days in Wisconsin many years ago. There was a trial of 
a young woman, 18 years old, on the college campus of the 
University of Wisconsin at Madison, and she accused an 
individual of raping her, and the trial ensued, and the judge--
the judge--accused the woman of inviting the rape because at 
that time she was wearing a short skirt. And this judge, it 
turns out, happened to be recalled, which is a very unusual 
process. Many States do not even provide for it. But this judge 
was recalled by the Wisconsin electorate because of their 
outrage that the judge was blaming the victim for what she was 
wearing.
    That story has resonated with me ever since, and this is 
probably 35 years ago. We tend to look at victims and hold them 
responsible. Did they walk somewhere they should not have 
walked? Did they have a drink at a bar? Did they go home with 
somebody they should not have gone with? And we look at what 
the victim did. We do not look at what the perpetrator did.
    Chairman Specter. Let me move on to your comment about 
concerns about prevention of sexual violence. That, of course, 
is an entirely different phase from reporting and investigating 
and prosecuting. What ideas would you have on the subject of 
prevention?
    Ms. Carbon. In my view, when I talk about sexual violence, 
I talk about the trilogy, if you will: the need for prevention, 
effective prevention; effective intervention when we provide 
services; and then treatment. We have talked so much over time 
about the appropriate services when we intervene in a crime, 
but I think that it is time that we rewind that script and come 
back to start preventing sexual violence so that we will 
prevent victims from ever becoming victims.
    We have a number of prevention programs through some of our 
grants, through the Rural grant, for example----
    Chairman Specter. Tell us about your ideas on how you 
prevent sexual violence.
    Ms. Carbon. I think we need a broad-based public awareness 
and education campaign to begin with. I think we need to change 
the cultural mores and the cultural values and our attitudes.
    Chairman Specter. Awareness of what? People are aware of 
what rape means, and people are aware that it is violent and 
antisocial. So how do you prevent it?
    Ms. Carbon. We prevent it by educating people about the 
fact that rape is a crime and about sexual assault being a 
crime. People get very confused with mixed messages that we 
send when we look at the media, when we look at sports, when we 
look at entertainment, and we see women in very degrading 
roles. We assume then that women are inviting this when indeed 
they are not.
    Chairman Specter. In the limited time I have remaining, let 
me move to another subject, and that is, the role of women's 
organizations in checking on police practices. We are going to 
hear from the Philadelphia Police Commissioner later that they 
have programs of transparency, where women's groups come in and 
review files to make an independent determination.
    Now, there is nothing like oversight to have people on 
their toes in the discharging of their official duties. How 
would you fashion a program where a women's organization, which 
we have in all of the big cities, many small towns, structure a 
program of working with the police department and having women 
take a look at the files to comment?
    Ms. Carbon. I believe you soon will be hearing in more 
detail from those organizations which are doing it this 
afternoon. But I can relate from a perspective from a court 
standpoint. I have not been privy to how they have actually run 
the program with law enforcement. But by opening our records, 
the principle of having open access to our files without 
violating confidentiality is an important way that we as public 
officials, whether we are in the court system or law 
enforcement, can be held accountable for what we do. And by 
reviewing the files, by assessing the testimony--not the 
testimony but the evidence that is in the files to determine 
whether there is a basis for prosecution is one good way.
    Through all of the work that we do under the Violence 
Against Women Act, we talk about a coordinated community 
response. So anytime we can bring in partnerships to help 
improve the work, bring in advocates to work with those 
professionals, I think we get a better outcome and more safety 
for victims.
    Chairman Specter. The red light went on during your answer, 
so I will turn now to Senator Cardin.
    Senator Cardin. Well, first, Chairman Specter, I want to 
thank you for holding this hearing. I think one of the most 
important functions of our Committee is to oversee what is 
happening on the enforcement of our laws. And, yes, while most 
of the prosecutions and investigations for sexual assaults will 
be done at the State and local level; it is important that the 
Senate provide the oversight to make sure our laws are being 
handled in an appropriate manner.
    I am convinced that sexual assaults prosecutions are at a 
much lower number than other criminal activities, and that we 
are not doing an appropriate job nationwide on helping those 
that are victimized in reporting the incident, investigating 
it, and prosecuting it. And when you look at the numbers, there 
is reason to be concerned.
    In Baltimore, we had the highest rate of unfounded cases in 
the Nation. Now, when you determine at the police level there 
is an unfounded case, it generally means that you do not 
believe the victim. And there is really no evidence to support 
the numbers that we had in Baltimore.
    The Baltimore Sun put a spotlight on this. As a result, 
there was action and attention was paid, and all of a sudden, 
the number of cases have gone up dramatically in Baltimore--not 
because there are more cases, but because they are now treating 
it the way it should be, at least starting to do that.
    So I guess my question for you is: What are you doing in 
order to try to see whether we can get accurate information 
nationwide, that we have a common set of information as to the 
number of cases that are being followed up, that there is 
adequate training through local police to handle this, how you 
are helping set up the response teams that are necessary to 
help victims during these extremely difficult times, so that we 
have a common set of numbers nationwide in order to be able to 
set up the right programs here at the national level to assist 
local law enforcement to help those who have been victimized 
through sexual assaults, and to make sure those who are 
perpetrators are held accountable?
    Ms. Carbon. Those are great questions, and this is 
obviously the subject of the hearing here today. We have at OVW 
many different technical assistance providers and many training 
programs for all of the various professions, but in particular 
on law enforcement, we have a number of programs that are 
designed to educate sort of both tiers, from the top down and 
the bottom up. We have training programs for police chiefs 
through the International Association of Chiefs of Police, 
IACP. We have other programs through Ending Violence Against 
Women and many other technical assistance providers that have 
training curricula, whether it is online or live training, to 
teach line officers about how to investigate cases and how to 
report, understanding how to conduct interviews, understanding 
how to clear cases.
    One of the most important things we can do is to have a 
common understanding around terminology, because different 
States and different police departments define different crimes 
in a different way. So I would urge that there be some common 
terminology so that we can compare apples and apples and 
oranges and oranges as we go through. That is one of the 
challenges we have that it would be helpful to be addressed.
    Senator Cardin. I think that is a recommendation we need to 
take a very close look at, because I understand that in some 
jurisdictions they might take a sexual assault and classify it 
as just an aggravated assault. It may be at different levels, 
and there one different definitions that are used, and that is 
something we need to have a better understanding of. But what 
concerns me is whether we have the numbers as to how police 
departments record unfounded reports they do not follow up on. 
Do you have any statistical information that could help us as 
to whether certain jurisdictions are just dismissing out of 
hand complaints that are being filed on a very arbitrary basis? 
Do we have any information to be able to take a look at what is 
happening? There are so many cases in which the police are 
brought in and they are not even sent out to investigate. They 
are not even sending cases over to a detective or to the 
prosecutors; decisions are being made by the responding police 
officer not to take it any further.
    Now, in Baltimore, they are requiring reports to be filed, 
so now we are at least getting second looks at these cases to 
make sure that there is a follow-up. I am concerned that in 
other areas of this Nation that they may not be hitting the 
radar screen.
    Ms. Carbon. There is research to suggest that the number of 
truly unfounded cases is somewhere between 2 and 10 percent or 
2 and 7 percent. So the number of truly unfounded is very 
small. Some of the steps that they are taking in law 
enforcement agencies around the country are to do what you are 
suggesting, and that is, No. 1, that we document that there is 
a report of every incident, instead of just holding the case 
and not report anything. We found it very helpful to require 
that law enforcement officers document the event, that they 
report what has actually happened, and that they then have a 
supervisor review the report to ensure that there either is 
evidence to go forward or not, but what additional steps would 
need to be taken.
    So with those additional reporting requirements coupled 
with much more intensive training, we are going to get a better 
outcome. And kudos to the departments that are willing to do 
this, because by doing so you are undoubtedly going to see a 
rise in the numbers that are reported. There may not be a 
difference in the crime rate because we are actually disclosing 
what has been happening but has been hidden from public view.
    Senator Cardin. Well, I agree with that. I think it is very 
important. I think we have to have a common set of numbers. We 
have to know what is happening. And unless there is a 
consistent interpretation of these reports as to whether they 
should be investigated and recommended for prosecution, then we 
really do not have a good grip on what is happening nationwide.
    Ms. Carbon. You are exactly right.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Cardin.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, for organizing 
this very important hearing and for allowing me to attend. I am 
not on the Subcommittee, but you opened it to every member of 
the Judiciary Committee.
    Director Carbon, I want to talk about rape kits. As you 
mentioned in your written testimony, when Congress passed VAWA 
in 1994, it tried to make sure that victims would not bear the 
cost of the forensic exams that victims receive after an 
assault or rape kits. The problem is that some jurisdictions 
are still billing victims for the rape kits and leaving it to 
the victims to get reimbursed by insurers or victims' funds, 
and without objection, Mr. Chairman, I would like to add to the 
record four articles from the National Center for Victims of 
Crime, U.S. News and World Report, Pro Publica, and Human 
Rights Watch that document this.
    Chairman Specter. Without objection, they will be made a 
part of the record.
    [The information appears as a submission for the record.]
    Senator Franken. But to me, the real problem is that this 
practice is actually legal. Under Federal law, it is legal to 
bill a victim for her rape kit, and the law just says that the 
State needs to fully reimburse her. In the past, the Office of 
Violence Against Women thought that it was a bad policy. An 
FAQ, Frequently Asked Questions, that your office issued in 
2007 says that the Office on Violence Against Women strongly 
encourages States to not require victims to file a claim to 
their insurers. It explains that when the States do this, they 
may inadvertently inform a victim's family of an assault, or 
spouse or children, when they get a statement from their 
insurer in the mail.
    Can you elaborate on this? Is it a good idea to allow 
victims to be billed for their rape kits even if they get fully 
reimbursed later?
    Ms. Carbon. In my view, I think not. I would like to share 
with you an amendment----
    Senator Franken. I am glad to hear you say that.
    Ms. Carbon. [continuing]. For the Committee's benefit. When 
VAWA was reauthorized in 2005, in part to address that, there 
was a concern that many victims may have been raped a long time 
ago and they may not want that information shared. They may 
have elected not to prosecute for whatever reason. But in 2005, 
when the Violence Against Women Act was reauthorized, the 
certification was changed to allow States to pay and use their 
VAWA funds or their STOP funds to pay for the examination. But 
that was conditioned on a couple of things, and one is that the 
victim not be required to submit it to her insurance carrier 
and that the examination be done by a trained professional.
    Having a victim--the loophole is there which you identify. 
We are doing training, and we have screened all of the 
jurisdictions to ensure that they are in compliance with the 
law; but that is not to say that we cannot do a better job or 
that perhaps the statute could not be strengthened to prevent 
any possible exposure for a victim. And even though the statute 
has improved from 2005 over 2000, I think we are always looking 
for ways to do the job better, and if there is a way that we 
can protect victims better----
    Senator Franken. You said it is sort of a loophole in the 
law, but even the good part of the law is not followed. The law 
says that victims should get a free rape kit or be totally 
reimbursed for it.
    Ms. Carbon. Correct.
    Senator Franken. But, again, I have seen reports of victims 
having to pay insurance deductibles for their rape exams or 
paying what is left after a Crime Victims Fund, which I think 
is what you are referring to, maxes out.
    Here is one new clip from last May which, without 
objection, I would also like to add to the record.
    Chairman Specter. It will be made a part of the record, 
without objection
    [The information appears as a submission for the record.]
    Senator Franken. The relevant part says, ``The police 
department made one payment toward the single mother's 
hospital''--this was a rape victim--''but when she submitted 
the $1,847 worth of remaining bills to the Crime Victims Fund, 
she received a denial letter telling her that law enforcement 
should have paid.''
    Director Carbon, enforcement of this law does fall under 
the Department of Justice's jurisdiction. Can you assure me 
that you will make sure that rape victims are not directly or 
indirectly having to pay for their rape exams?
    Ms. Carbon. I will absolutely look into that, Senator. They 
should not have to pay for their exams--that is clear--under 
their condition of receiving their STOP money.
    Senator Franken. Thank you so much.
    Ms. Carbon. Thank you.
    Senator Franken. Thank you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Franken.
    Thank you very much, Director Carbon. We now move----
    Senator Klobuchar. Senator Specter, hello. I just came in.
    [Laughter.]
    Chairman Specter. Welcome, Senator Klobuchar.
    Senator Klobuchar. Thank you, Mr. Chairman.
    Chairman Specter. The floor is yours.
    Senator Klobuchar. I have been in the impeachment hearing, 
and it is kind of nice to leave the State of Louisiana for a 
little bit and come here, so thank you. All right. Thank you.
    Chairman Specter. You have the floor.
    Senator Klobuchar. And I do apologize. We have this very--
--
    Senator Franken. We all love Louisiana, though.
    Senator Klobuchar. Well, we do, but, you know, we have been 
talking a lot about things that I did not know went on there, 
so it is good to be here.
    Ms. Carbon. It is nice to see you again. Thank you.
    Senator Klobuchar. Thank you very much. I know that you 
have focused on that there has been progress made in addressing 
this crime in metropolitan areas. I saw it myself as chief 
prosecutor in Hennepin County, which includes Minneapolis, 45 
suburbs. Could you talk about what is going on in rural areas? 
As I began to get out in my State and represent the entire 
State, I saw this vast difference between the resources and the 
knowledge and the tools that rural jurisdictions have compared 
to metropolitan areas.
    Ms. Carbon. Certainly. Thank you. Having just returned from 
a trip to Alaska, I can talk to you about rural jurisdictions.
    Senator Klobuchar. Senator Begich refers to his State as 
``extreme rural.'' That is a different category.
    Ms. Carbon. Just for your benefit, I had never appreciated 
the extent to which it is so rural. Alaska is two and a half 
times the size of Texas, half the population of New Hampshire, 
about the population of Vermont. And so when you have most of 
the State that is not accessible and parts of the State that 
have no services at all, it truly is a desperate state of 
affairs.
    But in response to the more general question about rural 
programs, there are many programs that we fund that provide 
services in rural communities, and one is the Rural Sexual 
Assault, Domestic Violence, Dating Violence and Stalking 
Assistance Program, so that we can provide services that are 
sexual assault specific services in those communities.
    There is also a new program, a new demonstration program 
which we are funding called the Sexual Assault Demonstration 
Initiative that we are about to roll out in a couple weeks that 
will be designed to provide enhanced services for dual 
coalitions that have traditionally not been providing sexual 
assault services but will provide enhanced services in rural 
communities. And so there will be five sites around the country 
funded for that.
    In addition, we are looking to, as Vermont has, have 
specialized sexual assault units in the local police 
departments, and these are very effective tools so that we 
train local agencies to be able to respond to sexual assault 
cases, giving them the enhanced training and understanding how 
to inquire of victims in the way that Senator Specter was 
speaking of earlier, the need to be sensitive to victims and 
not put them in a position where they are going to then feel as 
though they have assumed responsibility for the crime.
    So this kind of training that we do as well, through our 
Rural Programs, our STOP Programs, also our Campus Programs and 
many others, help to support the need for services. Our SAS 
program itself, Sexual Assault Services Program, is the first 
funding stream, as I mentioned earlier, that is dedicated 
solely to sexual assault victims services, and those apply in 
rural areas as well. It is extremely important that we have 
appropriate advocacy and counseling services in rural areas and 
that they work with local law enforcement and prosecution as 
well.
    Senator Klobuchar. OK. In your testimony, your written 
testimony, you acknowledge that 10.5 percent of high school 
girls and 4.5 percent of high school boys report some kind of 
rape or forced sexual intercourse. What is your office doing to 
better address the problems of rape at the high school level 
and on to college?
    Ms. Carbon. Assault of teenagers and on college campuses is 
one of the most serious problems that we have. The more that we 
look at what is going on and we study, we learn that assault is 
happening at earlier and earlier ages. Sixteen years ago, when 
the first Violence Against Women Act was adopted, we did not 
even contemplate teen violence. We talk about teen dating 
violence, for example, but it is really not dating violence 
because kids do not date. It is really sexual assault in those 
relationships.
    We have a program that OVW is funding in partnership with 
the Ad Council and the Family Violence Prevention Fund called 
ThatsNotCool.com. It is a website where teens can go online and 
they can talk peer to peer to learn about how to address what 
may be happening in their relationships so that they can be 
safer and who they can turn to to get help so that they can 
avoid any further sexual assault.
    On college campuses, we have a number of technical 
assistance providers as well, including one which we have here, 
the Security at Campus Program. We are doing lots of training 
on college campuses, and, in fact, the Department of Justice 
just completed a campus tour in March to highlight what is 
going on around college campuses in the country and the 
importance of starting new programs.
    Back in my home State of New Hampshire, we are funding a 
program, the Bystander Intervention Program, so that college 
campuses and college students can learn what they can do to 
intervene safely when they observe on college campuses an 
incident about to happen or one which may have happened. 
College students there have developed their own campaign ads to 
post on all of the buses going around campus, their own 
billboards saying watch out if this happened or do you know 
about this, or whatever it may be.
    Senator Klobuchar. I do not mean to cut you off, but the 
cyber issue, have you looked into that? I have a bill with 
Senator Hutchison, and that also has House authors, and we have 
been working actually with Erin Andrews, the ESPN reporter who 
was stalked and her video was put all over the web. I suggest 
you guys look at this bill. I think it is good for going after 
cyber stalking. But have you looked at the cyber issue and how 
that relates to sexual assault issues in colleges and in high 
schools with kids?
    Ms. Carbon. It is a big part of that.
    Senator Klobuchar. That is what I thought.
    Ms. Carbon. The kids are using technology that in my day 
and age we never had, and it is really a very important piece 
of the overall puzzle, because, regrettably, parents are not 
aware of some of the ways in which their kids are being 
assaulted or stalked. And so having information about that is 
important. It is part of our training programs which we have.
    Senator Klobuchar. All right. Thank you very much.
    Chairman Specter. Thank you, Senator Klobuchar.
    Thank you very much, Director Carbon.
    Ms. Carbon. Thank you, Senator.
    Chairman Specter. We move now to the next panel: Carol 
Tracy, Commissioner Ramsey, Ms. Sara Reedy, Julie Weil, Ms. 
LaWanda Ravoira.
    Our first witness is Ms. Carol Tracy, the executive 
director of the Women's Law Project in Philadelphia. She is a 
lecturer at the University of Pennsylvania and Bryn Mawr School 
of Social Research, a graduate of the University of 
Pennsylvania, and a law degree from Temple University.
    We have a very large number of witnesses, nine in total, so 
we are going to have to observe the time limits very closely.
    Ms. Tracy, the floor is yours for 5 minutes.

STATEMENT OF CAROL E. TRACY, WOMEN'S LAW PROJECT, PHILADELPHIA, 
                          PENNSYLVANIA

    Ms. Tracy. Thank you, Senator Specter, and thank you for 
responding to my request to have this hearing, and I thank 
other members of the panel for being here.
    We believe it is critically important that Congress address 
the claims that are being made that police departments 
throughout the United States are mishandling rapes and other 
sex crimes. We think it is essential that this Committee review 
the serious inadequacy of the Federal Bureau of Investigation's 
Uniform Crime Report both in its definition of rape and in the 
assessment of the quality of the rape data reported by local 
law enforcement agencies.
    The Women's Law Project first became involved in addressing 
police mishandling of sex crimes in the fall of 1999 when the 
Philadelphia Inquirer published an investigative series which 
you described earlier, Senator Specter. Massive reforms have 
taken place in Philadelphia since that time, including an 
invitation for advocacy groups to review case files. Ten years 
later, we and other advocates continue to conduct an annual 
case review. A very strong collaborative reform effort put in 
place by then-Commissioner John Timoney continues under the 
able leadership of Commissioner Ramsey. We all recognize the 
need for constant vigilance and cooperation. We believe that we 
have a successful partnership in Philadelphia.
    Because of the role that we have played in this, 
journalists from all over the country have contacted me. My 
full testimony is replete with information. I will just 
highlight a couple to try to get through this in 5 minutes.
    The Baltimore Sun reported that, since 1992, the number of 
Baltimore rape cases reported to the FBI has declined by 80 
percent; since 1991, the percentage of unfounded rape cases has 
tripled. From 2003 through 2010, police wrote reports in only 4 
in 10 rape calls, signifying that patrol officers were 
rejecting cases prior to investigation.
    Each of these papers--St. Louis Post Dispatch, the Times-
Picayune, the New York Times, the Village Voice--all report 
data like this.
    The translation of this data to real life presents some 
horrifying details. The Cleveland Plain Dealer reported that a 
Cleveland victim was found to be ``not credible'' after she 
filed a complaint that she had been sexually assaulted by a man 
who had spent 15 years in prison for a rape charge, was a 
registered sex offender. Her complaint was unfounded even 
though she was bleeding when she flagged down a police cruiser 
and provided the police with detailed information about the 
assailant. Police eventually found the remains of 11 women at 
Anthony Sowell's home, six of whom were murdered after police 
failed to pursue the complaints of these women. In Milwaukee 
and Baltimore and Philadelphia, we have all heard stories like 
that.
    Initially I thought the reports of egregious police conduct 
were isolated incidents. However, it is clear that we are 
seeing chronic and systemic patterns of police refusing to 
accept cases for investigation, misclassifying cases to non-
criminal categories so that investigations do not occur, and 
``unfounding'' complaints by determining that women are lying 
about being sexually assaulted. Victims are interrogated as 
though they are criminals, are presumptively disbelieved, are 
threatened with lie detector tests and/or arrest, and are 
blamed for the outrageous conduct of perpetrators.
    I want to move now to the Uniform Crime Report. The UCR 
defines, analyzes, and publicizes the incidence of sex crimes. 
The UCR is supposed to be the authoritative source of 
nationally represented information on crime. The data are used 
by policymakers, the media, and researchers to describe and 
understand crime and police activity. In addition, Congress 
allocates Federal funds to States and localities based on these 
data.
    Criminologists have informed me that this data is so 
inaccurate on rape, unlike other data that the UCR reports, 
that it cannot be used.
    Not only is the crime of rape not properly reported, but 
the definition is totally inadequate. ``Forcible rape'' is 
defined in the UCR as ``the carnal knowledge of a female, 
forcibly and against her will.'' This definition, unchanged 
since 1927, is exceedingly narrow and does not reflect how 
America has significantly expanded its understanding of rape, 
and States have revised their laws accordingly.
    Many State criminal laws and the public at large now 
recognize that all forms of non-consensual sexual penetration, 
regardless of gender, relationship, or mode of penetration, are 
as serious as the criminal conduct included in the UCR crime. 
Yet the narrow definition continues.
    We wrote to the FBI in the year 2001, sadly in September 
2001, asking them to change the definition of rape. Over 90 
organizations signed on to our request. At that time, of 
course, the FBI's attention was directed to the events of 9/11. 
We have never received a response, and we believe that both the 
crisis that is being reported in the papers and this hearing 
will bring about the necessary change.
    Rape is a heinous crime, second only to murder in severity. 
Sexual assault survivors who have come forward to report the 
crime are entitled to be treated fairly and with dignity. If 
police do not regard complaints of rape as crimes, then there 
is no investigation or arrest, thus further endangering the 
public as sexual predators remain free to continue to rape 
other victims, and in some cases murder them.
    Chairman Specter. Ms. Tracy, how much longer will you need?
    Ms. Tracy. Pardon?
    Chairman Specter. How much longer will you----
    Ms. Tracy. I am at the end.
    We recommend the following steps: Please direct the UCR 
program staff to update the definition of rape; charge the UCR 
program staff to undertake a nationwide audit of police 
practices to ensure that local law enforcement agencies are 
recognizing and investigating crimes; and continue the support 
of the Office of Violence Against Women.
    We are grateful for the opportunity to be here, and we just 
want to make a note that we should all be grateful to the 
press, because if it were not for the press reporting these, we 
would not be here today.
    Thank you.
    [The prepared statement of Ms. Tracy appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Ms. Tracy.
    We turn now to Commissioner Ramsey, Police Commissioner of 
the city of Philadelphia, fourth largest in the country, some 
7,500 employees, was for 8 years the Police Commissioner of 
Washington, D.C.
    Thank you for joining us, Commissioner Ramsey, and we look 
forward to your testimony for 5 minutes.

  STATEMENT OF CHARLES H. RAMSEY, COMMISSIONER, PHILADELPHIA 
         POLICE DEPARTMENT, PHILADELPHIA, PENNSYLVANIA

    Commissioner Ramsey. Thank you and good afternoon, Senator 
Specter, Senators Franken and Cardin, and invited speakers and 
guests. I want to thank you for the opportunity to appear here 
today before this Committee to talk about this critically 
important issue.
    I would like to begin by thanking a trusted colleague, 
tireless advocate, and friend Carol Tracy, who testified before 
me and summarized the incidents in Philadelphia in 1999 that 
led to dramatic changes in the department. I firmly believe 
that partnerships between law enforcement agencies and our 
social service, prevention, and victim advocacy counterparts 
are absolutely essential in addressing some of the most 
pressing issues that confront us.
    I will be brief in this testimony and share with you the 
most relevant lessons learned from our history in the 
Philadelphia Police Department on how rape has been reported 
and investigated. The deliberate downgrading of rape cases in 
the Philadelphia Police Department in the late 1990s, brought 
to light by the excellent investigative work of the 
Philadelphia Inquirer, exposed a widespread hidden practice. 
There was no one person or unit responsible; it was a pervasive 
and systemic failure. Consequently, it took a comprehensive and 
relentless approach to address this failure. Under then-Police 
Commissioner, John Timoney, many important corrective actions 
were taken at all levels: from training, report writing, and 
interviewing, to coding and follow-up investigation. It also 
required changing leadership, adjusting staffing levels, 
accepting oversight, and establishing partnerships with 
advocacy groups.
    The department has had the same commander of the now 
Special Victims Unit, or SVU, since the year 2000, at which 
time a number of seasoned investigators were also transferred 
into the unit to increase our staffing levels. Our partners 
have also remained in their positions in the advocacy groups. 
Carol Tracy has been with the Women's Law Project since these 
changes were implemented, and once a year, she and her peers 
from other organizations come to the SVU office and pore over 
between 300 to 400 cases selected at random. They have complete 
access to our files and our personnel. This is just the formal 
component of their annual review, but on a daily basis, these 
organizations are in constant communication with police 
personnel from SVU. They have established a long-term 
relationship, one that is built on trust and confidence in what 
was a broken system. I credit all the personnel in SVU and our 
advocacy groups for their persistence and their dedication to 
their jobs, and to the thousands of people they have helped 
deal with this traumatic crime. I cannot overstate the 
importance of this collaboration in charting a new course of 
direction in how rape was and is now reported and investigated 
by our department.
    The Philadelphia Police Department put measures into place 
that thus far have been helpful in re-establishing trust and 
promoting a culture that treats victims of rape with dignity 
and respect. There will always be room for improvement, but we 
are committed to continuous improvement as a core principle for 
how we will move forward in the future.
    Fostering collaboration amongst governmental organizations, 
police departments, courts, and advocacy and prevention groups 
is critical in ensuring that we work with victims of rape and 
sexual assault in a manner that is compassionate and under a 
process that is transparent. We must all be advocates for 
anyone who has been impacted by this kind of violence. If there 
are lessons to be learned from our department, I would urge 
others to focus on this aspect of how we report and investigate 
rape and sexual assault. Do not do it alone. Invite your 
stakeholders to be a part of this process and work together in 
treating rape and sexual assault from a holistic perspective. 
Our partnerships have strengthened every part of the process, 
from reporting each case of sexual assault, irrespective of the 
circumstances, to a thorough investigation by well-trained 
specialized detectives, and finally to working with our medical 
and mental health providers in minimizing the trauma 
experienced by victims of this heinous crime.
    A crisis is often a catalyst for real and systemic change, 
such as was the case in Philadelphia. Police departments can 
also learn from each other, and organizations like the Police 
Executive Research Forum can facilitate that transfer of 
knowledge. And I am pleased to announce today, as the president 
of PERF, that we will convene an executive session in early 
2011 for police leaders, medical and mental health 
professionals, and advocacy groups to discuss the current state 
of sexual assault reporting and investigations. Based on the 
results of this session, we will make recommendations on how 
police agencies can partner with their social service and 
advocacy colleagues and identify best practices in the 
investigative process.
    Thank you, sir, for your time here today, and I look 
forward to answering any questions you might have.
    [The prepared statement of Commissioner Ramsey appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Commissioner Ramsey.
    We turn now to Ms. Sara Reedy, who had an extraordinary 
experience, having been raped at the age of 19 by a serial 
offender, not believed by the police, jailed, later exonerated 
when the serial rapist was caught in other similar situations, 
and engaged in significant litigation which was upheld by the 
Court of Appeals for the Third Circuit.
    Ms. Reedy, thank you for joining us, and for 5 minutes we 
want to hear what happened to you.

        STATEMENT OF SARA R. REEDY, BUTLER, PENNSYLVANIA

    Ms. Reedy. Thank you, and thank you for having me here.
    On July 14, 2004, I was working a 3 to 11 shift at the 
Cranberry Gulf Station on Route 19 by myself. At about 10:40 
p.m., a man came into the store. He proceeded to walk through 
the store and then approached the counter, where he pulled a 
gun out and pointed it at me. He demanded that I sit on the 
floor in the corner, and he came behind the counter where the 
register was located. He questioned me about how to open the 
register drawer. After removing the cash, he came and stood 
directly in front of me where he held a gun to my left temple 
and demanded that I give him oral sex, saying ``if you do not 
swallow, then I will shoot you.'' After the assault, he told me 
to go into the back office and rip out the phone lines, and 
then said to me to wait in the back office for 5 minutes after 
he left.
    Following the assault, I went next door to Jordan's, an 
automotive shop. I had one of the employees call 911 and 
reported the crime. I stayed at the shop where several officers 
showed up, and I gave them a description of the attacker and my 
account of the assault. Shortly afterward, I was taken to 
Cranberry Passavant Hospital, where I first met Detective 
Evanson.
    When I arrived in the emergency room, I was put in a small 
office, where I begin to retell the night's events to Detective 
Evanson. At one point he asked me how many times a day I used 
heroin. I was then soon moved to an examination room. Detective 
Evanson came inside the room several different times asking me 
to retell the attack, and soon his attitude became very 
aggressive toward me.
    He asked me countless times where I had put the money or 
where the money was. He told me if I confessed things would go 
a lot easier for me. At one point I got very upset and was 
crying, and he told me that my ``tears would not save me.'' I 
stayed at the hospital for 3 hours before I was allowed to 
leave to go home.
    The next day, I went to the Cranberry police station with 
my mother and stepfather to give a written statement as asked 
by Detective Evanson. When I arrived at the police station, I 
was put in a small conference room by myself to write my 
statement, and Detective Evanson took my parents into another 
room where he questioned them about me. After finishing my 
written statement, Detective Evanson came into the room and 
began to question and accuse me about the theft. At one point I 
responded that I just wanted it all to go away.
    After only meeting Detective Evanson two times, I had lost 
hope of my attacker being caught because of Detective Evanson's 
unwillingness to believe my story.
    Two months after I was assaulted, another woman was 
sexually assaulted within 2 miles of my attack. Detective 
Evanson was assigned to this case. This woman gave almost the 
same exact description of her attacker and his M.O. as I had. 
Unfortunately, Detective Evanson was unable or just refused to 
make the connection between the two assaults, because he still 
accused me of fabricating my story.
    Detective Evanson even showed up at my residence where he 
called a marked police car for backup. He stood outside my 
house asking me to change my written statement and to confess 
to the crime and they would go easy on me. After almost 45 
minutes at my house, the only thing he managed to do was 
embarrass me in front of my neighbors and revictimize me.
    On Sunday, January 14, 2005, a warrant for my arrest was 
issued for theft, receiving stolen property, and filing a false 
police report. On Thursday, January 18th, I went to the 
Cranberry magistrate and turned myself in. I was given a $5,000 
straight cash bond because, according to Detective Evanson, I 
was a flight risk. I spent the next 5 days in jail waiting for 
a bond reduction hearing and a bondsman so I could be released. 
This all happened while I was 4 months pregnant with my first 
child.
    While awaiting trial, I had contacted a statewide tip line 
for a serial rapist. I talked to an officer and made him aware 
of the fact that I was assaulted and that I believed it was the 
same man they were looking for. I also explained that I 
reported the crime and my complaint was not taken seriously and 
I was arrested for the crime.
    Over 13 months after I was assaulted, a statewide search 
for a serial rapist ended. A man by the name of Wilbur Brown 
was caught in the act of sexually assaulting a gas station 
attendant in Brookville. After being placed under arrest, 
Wilbur Brown confessed to 12 different sexual assaults. One of 
those assaults happened to me.
    Thanks to a local news reporter, I was notified of that 
fact. I was able to call my lawyer who in return called 
Detective Evanson who confirmed that there was a confession and 
my charges would be dropped.
    After this experience, it left me concerned if I would ever 
be able to rely on an officer to do his job. Because of 
Detective Evanson's uncooperative attitude and unwillingness to 
believe me, the victim, a serial rapist was allowed to continue 
attacking and assaulting other women.
    Thank you.
    [The prepared statement of Ms. Reedy appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Ms. Reedy, for 
sharing that experience with us.
    Our next witness is Ms. Julie Weil, also a rape victim in 
Florida. In 2002, she was attacked by the so-called day-care 
rapist while picking her children up from a school in Miami-
Dade County, beaten and later reported her crime and appeared 
on ``America's Most Wanted.''
    Thank you for joining us, Ms. Weil, and the floor is yours 
for 5 minutes.

           STATEMENT OF JULIE WEIL, JUPITER, FLORIDA

    Ms. Weil. Thank you very much. Good afternoon, Chairman 
Specter and distinguished members of the Committee. Thank you 
for the invitation to participate in today's hearing. I am 
humbled to share my experience with you, and I hope that it 
empowers all of you to help all rape victims get the support 
they need to heal and to fight the injustice of the crime.
    Improving the reporting and the investigation of rape will 
happen only when we are committed to providing victims with 
comprehensive support services--from that first 911 call all 
the way through to sentencing. My story demonstrates this: The 
support services I received sustained me through the longest, 
most grueling years of my life, a time when giving up seemed 
like the best thing to do.
    As mentioned, my name is Julie Weil. I was raised in Miami, 
Florida, graduated from the University of Virginia, and then 
spent a brief time here in Washington working for the 
Department of Justice. After graduate school, I got married, 
and my husband and I chose to settle down in the same small 
town in South Miami where I had grown up. And this is where my 
story begins.
    On a beautiful, hot October morning in 2002, my 8-month-old 
son Peter and I went to pick up my 3-year-old daughter Emily 
from the church pre-school around the corner from our house. 
When we got back to our minivan, my daughter jumped inside 
while I buckled my son into his car seat. As I was doing this, 
I was ambushed from behind and hit on the head. As my daughter 
screamed for her life and fought to escape the van, my 
assailant stripped the car keys from my hand and held a knife 
to my neck. He closed the door behind me, locked us in, turned 
up the radio, and drowned out the sounds of my children's 
cries. As he pulled out of the church parking lot he turned to 
me and said, ``Ma'am, do you believe in God? '' And when I said 
yes, he said, ``Good. Then you are going to forgive me for what 
I am about to do to you and your two children.''
    He then drove my children and me as far away as he could to 
an area in the Everglades, parking our van on a canal bank 
surrounded by tall sawgrass. The hours that followed were the 
most terrifying of my life. The assailant beat me, held a knife 
to my neck, and raped me four times. Each time I was violently 
raped, he forced both of my children to watch every moment of 
his crime. My daughter was forced to sit just inches from me as 
I screamed in pain during the brutal sexual assault. When he 
was done with me, he drove me to two ATM machines and asked me 
to withdraw money. He then returned our van to the church, 
parked it behind some shrubs, and told me to wipe down all the 
surfaces of the car with my underwear to erase the 
fingerprints. He then laid me naked on the floor of the van and 
stuck the knife at the base of my neck one last time. He made 
my daughter beg for my life. The fear in my daughter Emily's 
tiny voice as she pleaded for him not to kill me still haunts 
me today. Then he casually opened the van door and walked away.
    I immediately drove to my parents' house and limped inside. 
Half naked and bleeding, I sobbed while my parents begged me to 
call 911. Although I was afraid of what my rapist might do to 
my family if I reported the crime, I soon called the police. 
The compassionate and professional responding officer and the 
SVU detective who arrived at my house that night, set the tone 
for how I would feel about my experience with law enforcement 
from that point on. Without that encouraging beginning, my 
story might have ended quite differently.
    Eventually, they took me to the rape crisis center at 
Jackson Memorial Hospital in Miami. Thankfully, the police and 
the nurses at the rape crisis center were all veterans in 
dealing with the unique needs of rape victims. The exam was 
horrible and very painful. Being poked, prodded, and 
photographed was almost too much to take, but the forensic 
nurse who stuck by my side helped me through the pain.
    The next few months were torture on my family. The police 
found no fingerprints, and the rape treatment center uncovered 
no DNA on my body. This was extremely disheartening news. 
However, a few days after the rape, I received a call informing 
me that a tiny speck of DNA had been recovered on my clothing. 
The DNA matched the DNA from another crime, but, unfortunately, 
the information was not in the system. In a city of millions of 
people, my attacker could be anyone. I was terrified.
    The Miami-Dade police force put everything they had into 
looking for this man. My relationship with the detectives in 
this case served as a source of strength for me in the 
agonizing months after my rape. Because they communicated with 
me and checked in on me, I felt like they were personally 
invested, and this gave me the strength I needed to continue 
forward.
    By a stroke of luck and some good police work, my rapist 
was finally identified months later. He was caught beating up 
his pregnant girlfriend at a motel. He was printed and swabbed 
for DNA, and 3 weeks later, the DNA tests came back as a match. 
I now knew who my attacker was: Michael Thomas Seibert. I 
finally thought to myself it was over, but I did not know that 
the real endurance test was just beginning.
    After his arrest, the State Attorney's office in Miami-Dade 
took over the case. I was thrown headfirst into the complex 
legal system that was totally foreign to me. The first 18 
months after my rapist's capture were filled with a great deal 
of confusion, delay, and disappointment, and I started to feel 
hopeless. Then my case ended up on the desk of Assistant State 
Attorney Laura Adams. Her team was amazing. They promptly 
returned my phone calls and communicated with me about 
everything. They empathized with my concerns and helped me to 
see the bigger picture, which was justice for my family.
    In October 2006 my trial began. It took more than 4 years 
of work to get to this point. Facing my rapist in court was 
extraordinarily difficult, not just for me but for my family. 
The compassionate care of the wonderful counselors from the 
State Attorney's office was invaluable to my family, and 
especially to my mother as she prepared to testify.
    Finally, after many days, I took the stand. For nearly 2 
hours, just feet from my rapist, I relived the horrendous crime 
in graphic detail. I endured degrading testimony from defense 
attorneys and recited all the despicable details to a room full 
of strangers.
    The jury deliberated for 2\1/2\ hours. I held my breath as 
they returned their decision: guilty on three counts of armed 
kidnapping, guilty on four counts of rape in the first degree 
with a deadly weapon, and guilty on one count of robbery. 
Sentencing came 5 weeks later. I told the judge how the rapist 
had destroyed the life I wanted for my family. I told him he 
forced us to leave the city, home, friends, and family we loved 
because we no longer felt safe. The judge saw fit to sentence 
Michael Seibert to an astounding seven consecutive life 
sentences plus 15 years for the crimes that occurred against my 
family.
    Chairman Specter. Ms. Weil, how much longer will you need?
    Ms. Weil. I am just wrapping up.
    There is immense power in seeing a case through to the end. 
The justice system can work when victims are provided with the 
support we need. Without that support, my rapist may still be 
free and victimizing others. That is why organizations like 
RAINN must be provided with the funds necessary to run their 
website and their hotlines that provide emotional support for 
families.
    Seven years ago, I was lying on the floor of my van, in the 
presence of my two children, naked and bleeding. I never would 
have imagined being able to come here to Washington to speak to 
you as a survivor activist. So now I continue to share my story 
with law enforcement training, State Attorney meetings, and 
medical personnel. The power that a positive experience with 
law enforcement and the legal system can have on a life and on 
public safety is enormous. The safest and the healthiest 
communities acknowledge the severity of rape as a crime and 
begin by respecting all victims, providing specialized training 
to law enforcement and health care professionals, and not 
downplaying the prevalence or the seriousness of rape.
    Thank you so much for your time and for inviting me to 
speak on this important topic.
    [The prepared statement of Ms. Weil appears as a submission 
for the record.]
    Chairman Specter. Thank you very much, Ms. Weil.
    The final witness on this panel is Dr. LaWanda Ravoira, the 
founding director of the National Council on Crime and 
Delinquency, Center for Girls and Young Women, in Jacksonville, 
Florida. Dr. Ravoira has an extensive educational background 
with a bachelor's, master's, and doctorate in public 
administration.
    Thank you for joining us, and we look forward to your 
testimony for 5 minutes.

STATEMENT OF LAWANDA RAVOIRA, PH.D., DIRECTOR, NATIONAL COUNCIL 
  ON CRIME AND DELINQUENCY, CENTER FOR GIRLS AND YOUNG WOMEN, 
                     JACKSONVILLE, FLORIDA

    Ms. Ravoira. Thank you, Chairman Specter and members of 
this Committee, for inviting the NCCD Center for Girls and 
Young Women to testify on this very important subject.
    Chairman Specter. Ms. Ravoira, before you proceed, I would 
like to recognize Senator Franken, who has another commitment 
at 3:30, for a question.
    Senator Franken. Thank you for your indulgence, Mr. 
Chairman, and, Dr. Ravoira, thank you for your work, and I did 
read your testimony last night. And I also want to thank Ms. 
Tracy and Commissioner Ramsey for your work, and your work, 
too, Ms. Weil. What happened to you and to Ms. Reedy is simply 
horrific, and I am just sorry about this, but I do have to go. 
And I just wanted to ask one question, and that is to Ms. 
Reedy.
    I would like to know what happened to Detective Evanson. I 
know that you have sued him and that was thrown out, and then 
that was overturned and that will either be going on or has 
gone on. But is he still on the force? Was he retained on the 
force?
    Ms. Reedy. Yes, he is still a detective.
    Senator Franken. OK. That to me is pretty amazing. I want 
to thank you and Ms. Weil again for your courage being here 
today and for all the other witnesses and Ms. Weil, and you, 
Ms. Reedy, for the work that you do.
    Ms. Reedy. Thank you.
    Senator Franken. Thank you, Mr. Chairman, for your 
indulgence.
    Chairman Specter. Dr. Ravoira, you may proceed.
    Ms. Ravoira. Thank you, Chairman.
    On behalf of the NCCD Center for Girls and Young Women, my 
work is about providing a voice for girls and young women to 
ensure that there are gender-appropriate responses to the 
treatment of girls and women. Today I would like to give voice 
to a young girl named Gabby. She is a 14-year-old girl, who is 
from Florida, who was not lucky enough to get a police officer 
who was willing to hear her story.
    You have heard the statistics throughout this hearing where 
one in six women will experience a rape or an attempted rape in 
her lifetime. More than half of these rape victims will be 
raped before their 18th birthday. But the statistics do not 
tell the whole story. Rape, as you have heard, is one of the 
most severe of all traumas. Think for a moment: The scene of 
the crime is the body of the survivor.
    One survivor's story paints a haunting picture of the long-
term impact of rape. Her name is Gabby. Gabby is a 14-year-old 
young woman who I have had the pleasure of knowing and learning 
from her courage. She is the daughter of a migrant family who 
lives in Florida. She was alone sleeping in her bedroom when 
the rapist came through the window, threatened her, took her 
out into the fields, and brutally raped her. She made her way 
back home to her mother, who did the right thing. She went to 
the local police department and asked for help. The police 
response was: What did you do to provoke this?
    She was sent home without support or referrals for 
treatment. She was terrified. For months, she did not leave her 
house, and she slept with her mother. Gabby was charged then 
for truancy for not going to school. Her mother convinced her 
to start sleeping again in her bedroom, but Gabby, when 
everybody would go to bed at night, would take her pillow and 
sleep on the floor outside of her mother's door because she was 
terrified.
    When she did return to her room sometime later, the rapist 
returned and raped her again. This time, when the mother 
reached out for help, the police did take a report, but little 
was done to find the rapist. But at least Gabby was referred to 
a program for girls and young women. Here she began to tell her 
story. She was terrified to leave because she did not know what 
the rapist looked like and she felt like he knew who she was 
and could be anywhere.
    This trauma continues to haunt her. The staff knew that she 
was the classic case of post-traumatic stress disorder. She was 
depressed and hopeless. She was a victim twice in what some 
people call ``a secondary rape.'' When she told the police, she 
was not believed.
    Gabby's story is the story of hundreds of girls and young 
women in this country. When girls make a decision to go to the 
police and report the rape, the response of the police is 
critical not only to the girl but to her family.
    There are pervasive attitudes and beliefs by the police 
that inhibit their ability to stop this horrible crime.
    First, there is a belief that if it is not a stranger rape 
that it is not as serious. There is also a belief if a weapon 
is not involved that it is not as serious. This is most 
disturbing when what we know is 80 percent of sexual assaults 
happen by someone who knows the victim. It is also quite 
disturbing when we know that control tactics do not always 
involve a weapon. That was certainly the case of Gabby. She was 
simply threatened and terrified.
    Also, what we see is law enforcement will discourage 
victims from reporting, sometimes portraying the personal cost 
to pursue prosecution, like repeated court trips, cross-
examinations that can be humiliating, or simply they do not 
believe the victim.
    Police may also threaten the victim about being charged for 
the crime if there is inconsistency in their story, and 
certainly the advocates that I work with feel the most 
egregious thing that continues to happen is that victims are 
asked to sign a waiver of prosecution when there is an 
acquaintance rape, which means the rape does not even get 
reviewed by the State Attorney. We hear consistently that it is 
just too hard to prosecute. What we believe is that the police 
officers are not trained to conduct an appropriate 
investigation.
    Chairman Specter. Dr. Ravoira, how long will you----
    Ms. Ravoira. I just have a few recommendations.
    The Center for Girls and Young Women is calling for an 
examination of the police culture and practices to improve the 
response to girls and young women. First, we believe, in 
addition to the things that you have already heard, that there 
should be consequences for police officers who unfairly detain 
and who treat victims of sexual violence as criminals. We also 
believe that there should be funding for more research for 
services for the missing voices and experiences of the highly 
marginalized----
    Chairman Specter. Dr. Ravoira----
    Ms. Ravoira [continuing]. And vulnerable population.
    Chairman Specter [continuing]. How long will you need? How 
much longer will you need?
    Ms. Ravoira. About 10 seconds. Thank you.
    And these victims include immigrants, individuals from 
rural communities, lesbian, gay, bisexual, and transgender 
victims, survivors with disabilities, as well as homeless 
women, and girls and women who are living in institutions and 
prisons. There also needs to be special attention to the rape 
and sexual assault of women in the military.
    We believe that it is vital that we collect accurate 
information about sexual assaults and the impact of police 
practices. It is our belief that no one should have to go 
through what Gabby went through and what she endured and 
continues to deal with. She deserves better, and so do all of 
the other women.
    Thank you.
    [The prepared statement of Ms. Ravoira appears as a 
submission for the record.]
    Chairman Specter. Ms. Reedy, how have you fared since this 
terrible experience?
    Ms. Reedy. I am sorry. Could you repeat that? I am sorry. 
Could you repeat that? I did not----
    Chairman Specter. How have you been after being the victim 
of the terrible circumstances you describe? How are you now?
    Ms. Reedy. Things are getting better. It has been a long 
road. I have been lucky to have a great family to support me 
and help me.
    Chairman Specter. How can you account for that police 
officer still being on the force?
    Ms. Reedy. I find it insulting, not only to me but to the 
people in the community.
    Chairman Specter. Ms. Weil, how are your children?
    Ms. Weil. Thank you for asking. My son was only 8 months 
old. He was too small to really understand what was happening. 
With him, it was more the 4 years that passed I was very 
distracted and not able to really be the Mom to him I wanted to 
be. My daughter struggles a lot still to this day with an 
eating disorder and an anxiety disorder, because although the 
incident happened on a single day, she was questioned 
repeatedly by police and by the State Attorney's office, so she 
was forced to relive it for a long time.
    Chairman Specter. How are they now?
    Ms. Weil. To see them, on the surface we are all doing a 
lot better. We have moved to a new community, and we are all 
getting counseling, and the future looks brighter than it did 
for sure 7 years ago.
    Chairman Specter. Dr. Ravoira, how is Gabby?
    Ms. Ravoira. Gabby is doing much better. She is going to 
school, and she is moving forward with her life. But the scars 
are really deep.
    Chairman Specter. Did they ever catch the fellow?
    Ms. Ravoira. They did not.
    Chairman Specter. Ms. Tracy, you tell about the FBI not 
responding. You have pinpointed a very serious problem about 
the definition, which is antiquated. I am sorry the FBI has not 
responded to your letter. I will let you know when they respond 
to mine. The Subcommittee will take this up with the FBI.
    [Laughter.]
    Ms. Tracy. Thank you.
    Chairman Specter. We will keep you posted.
    Commissioner Ramsey, your practices of involving the 
stakeholders, as you have put it, is a very good idea. Nothing 
like having oversight by the victims' advocates. Tell us a 
little more about exactly how that works. You make those 
records available to the women's group, and they review them 
and give you their judgment as to whether something else should 
be done?
    Commissioner Ramsey. Yes, sir. Let me again say that John 
Timoney deserves the credit for having begun this, but I agree 
wholeheartedly with this approach and will continue to refine 
it and make it even better.
    But, yes, at least once a year, 300, 400 cases are chosen 
at random, and they spend a few days actually going over these 
cases, and particularly unfounded or exceptionally cleared 
cases, and they will find some cases where it is felt that 
there are some investigative leads that were not followed up on 
and so forth. We get it back and go out and complete the 
investigation.
    There are sometimes active cases that are ongoing where 
either we need their assistance or they have some questions for 
us. And, again, I think it is a good check and balance, and I 
think that it is the way to go. I think that no matter how good 
your system may be internally, if you do not have someone from 
the outside that can review and critique what it is you are 
doing and always working toward helping to make it better, then 
I think that it is always going to be subject to some, you 
know, doubt as to whether or not you are thoroughly 
investigating these crimes.
    Our job is to take the report. It does not matter what you 
may feel about the victim. Take the report. Let the 
investigation reveal whether or not it is founded, unfounded, 
what needs to happen. Let the investigative process take hold.
    Chairman Specter. Commissioner, I have only got 47 seconds 
left.
    Ms. Tracy, as a Pennsylvanian, you are one of my employers, 
and as a Philadelphian, you are one of Commissioner Ramsey's 
employers. Is he doing a good job on this subject?
    Ms. Tracy. Absolutely, both on this subject and we are also 
working very intensively with them on domestic violence and 
stalking, and we are, in fact, putting a whole new protocol in 
place for dealing with domestic violence. We have a really good 
partnership, and we can take complaints to them, and the 
defensiveness is not there. Just we have got a problem, we are 
going to talk about it, and we move forward. But they have been 
incredibly responsive to the advocacy community.
    Chairman Specter. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, and let me thank 
this panel.
    We hear the statistics, we hear the numbers, and I really 
want to thank particularly Ms. Reedy and Ms. Weil for being 
here to put a face on the issue. Numbers can be cold, but when 
you hear the testimony of people who have been victimized, you 
realize how many families have been involved and affected by 
the policies, the laws we pass, and the way that they are 
implemented. So I really want to thank you. I know it is not 
easy to appear before us, and I thank both of you for being 
here to help us understand a little bit better the seriousness 
of what we are dealing with.
    Ms. Tracy, and also Mr. Ramsey, you talk about the 
statistical information. Unless we have good statistics, we 
cannot plan how to deal with this. You cannot allocate the 
resources. You do not know how many--how the police have to 
allocate their resources, local governments, the State's 
Attorney, and, of course, here at the national level. And we do 
not have good statistical information on sexual assaults. We 
just do not have it. We need to get beyond just the current way 
that it is reported.
    I know that you mentioned the Uniform Crime Report. I think 
we need to get to a National Incident Based Reporting System 
which gives a lot more information and detail so that we can 
develop a uniform understanding of what is happening around the 
Nation. I know in my own State of Maryland, we are moving 
forward to implement the National Incident Based Reporting 
System. It is more costly, and we are going to need to see 
whether we need to do policies nationally to make sure we have 
this accurately done for sexual assault cases.
    But then you need to have a way in which you have some 
uniform and accountable system for evaluating and referring the 
incidents that occur. It cannot rest with the responding police 
officer. I am sure they are doing incredible work, but you need 
to have independent, accountable reviews of what is happening 
for the proper referral and for providing the proper assistance 
to the victim. You could not have two dramatically different 
stories than the two people who are before us, both suffering 
from a horrible incident, one finding the system that 
responded--4 years is too long, but that is our justice system, 
and sometimes it takes a long time to get where we need to. In 
your case, the results were what it should have been. 
Obviously, we did not want this to happen at all. We want to 
prevent it. But in Ms. Reedy's case, it was horrible. You were 
abused twice, and that should never have happened.
    So I think the lesson learned from this panel, Mr. 
Chairman, is that we really need to get better statistical 
information as to what is happening, and we need to make sure 
that there is a consistent policy in the way that reports are 
handled and that there is an accountable system for reviewing 
the way that they are referred for investigation and 
prosecution so that we can properly evaluate what we need to do 
to be a partner here at the Federal level to make sure this is 
handled properly.
    Just speaking, Ms. Tracy, to your point about the 
Philadelphia Inquirer and what happened in the Baltimore Sun 
papers, when you put a spotlight on it, people respond. 
Unfortunately, there are so many things that people are doing 
that this has become not a priority in too many jurisdictions 
around the Nation. We want to make sure this is a priority in 
every jurisdiction around the country.
    Ms. Tracy. And it should not just be the responsibility of 
investigative reporters to look at this, because in addition to 
the UCR not having the appropriate definition, they are not 
exercising their audit responsibility. When 45 cities with 
populations over 100,000 have unfounded rates of rape over 20 
percent, there is something very wrong with those cities. Some 
cities have more unfoundeds than they have reported rapes.
    So the FBI's Uniform Crime Report really needs to examine 
both its definition and its audit responsibilities, and I think 
we would all be happy if NIBRS were implemented throughout the 
country. Part of the reason that we wrote the letter we did in 
2001 is that we just saw it was not moving as quickly or at 
all.
    Senator Cardin. I agree completely.
    Thank you, Mr. Chairman.
    Chairman Specter. Thank you very much, Senator Cardin.
    We now turn to our next panel: Dr. Kilpatrick, Scott 
Berkowitz, Eleanor Smeal, and Professor Dempsey.
    Our first witness on this panel is Dr. Dean Kilpatrick, 
Professor of Clinical Psychology at the Medical University of 
South Carolina, director of the National Crime Victims Center. 
While they are departing, I want to thank very much our first 
panel: Ms. Tracy, Mr. Ramsey, Ms. Reedy, Ms. Weil, and Dr. 
Ravoira.
    We begin with you, Dr. Kilpatrick. Regrettably, the number 
of witnesses we have had and the number of questions have 
prevented our moving into as much detail analytically as I 
would have liked, and as we have done at most hearings. But 
there are other commitments shortly after 4, which has required 
us to keep on a very tight schedule.
    We look forward to your testimony, Dr. Kilpatrick. The 
floor is yours for 5 minutes.

     STATEMENT OF DEAN G. KILPATRICK, PH.D., DISTINGUISHED 
 UNIVERSITY PROFESSOR, VICE CHAIR FOR EDUCATION, DEPARTMENT OF 
    PSYCHIATRY, DIRECTOR, NATIONAL CRIME VICTIMS RESEARCH & 
    TREATMENT CENTER, MEDICAL UNIVERSITY OF SOUTH CAROLINA, 
                   CHARLESTON, SOUTH CAROLINA

    Mr. Kilpatrick. Thank you, Mr. Chairman, and the Commerce 
Department, and I appreciate the opportunity for being able to 
address the Committee. I have submitted a lot of written 
material which would tell you more than anyone ever wanted to 
know about rape statistics, and so I am not going to go into 
that in any depth at all.
    What I would like to say is that I think statistics are 
important because it provides policymakers with information 
that will allow us to know whether things are changing, whether 
they are getting better or worse, and where the problems lie so 
that we can document really what needs to be done.
    I have been in this field for a long time, since 1974, when 
I helped establish the first rape crisis center in the State of 
South Carolina. And I would like to say that I think things 
have gotten better in some ways, and in some ways things have 
not changed at all.
    One of the things that has not changed significantly is 
improvements in the way that particularly the FBI Uniform Crime 
Report documents and commands to law enforcement agencies about 
how the data are collected. And so I would just like to 
associate myself with the remarks of several other people who 
say that there is really no excuse now not to change the way 
that the FBI Uniform Crime Report addresses the issue of rape.
    I would also like to talk about two studies briefly that my 
colleagues and I have done that had the advantage of occurring 
over 15 years apart, and so they do provide some information 
using contemporary, state-of-the-art measurement in terms of a 
victimization survey of actually what has happened to the 
prevalence of rape, meaning the proportion of women who have 
ever been raped, as well as more recent cases.
    To make a long story very short, what we have found is 
basically that over that 15-year period there has been no 
improvement at all in terms of the proportion of adult women in 
the United States who have been victims of forcible rape. In 
fact, it has gone up over 25 percent. So, in fact, the burden 
of rape on women in America is actually greater now than it was 
15 years ago.
    Second, we have not found any increase, substantial 
increase in terms of the proportion of rape cases that are 
reported to law enforcement. Everything you have heard about 
today has been cases that law enforcement knew about and then 
mishandled in many cases. But most of the cases--in fact, over 
80 percent of the cases still go unreported. And so basically 
no law enforcement agency, no criminal justice system can 
address the issues of those victims if women are reluctant to 
come forward.
    Third, my testimony, my written testimony, outlines 
concerns that rape victims had. The big one is being believed 
by other people, people finding out about my name, and over 60 
percent of the victims are still saying that they are very 
concerned about being believed and about what happens to 
victims after they report. The concerns of the women in America 
who have been raped are the same now as they were 15 years ago, 
so there has been absolutely no progress on that.
    Finally, we found that being the victim of rape increased 
substantially the risk of post-traumatic stress disorder, major 
depression, suicide attempts, and alcohol and drug abuse 
problems. And so most of the people who had those problems 
still have them, suggesting that most victims are not getting 
effective mental health care.
    So, in conclusion, let me just say that I really do think 
that the time has come for the Senate to demand that the 
Justice Department change not only the FBI Uniform Crime 
Reporting system for rape, but that it also engages in an 
updating of the National Crime Victimization Survey, which 
woefully under-measures rape. And so without better data on 
that, we will not have information about whether things are 
getting better or not without the type of independent studies 
that I told you about today.
    Thank you and I would be happy to answer questions.
    [The prepared statement of Mr. Kilpatrick appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Dr. Kilpatrick.
    We now turn to Mr. Scott Berkowitz, founder and president 
of the Rape, Abuse and Incest National Network, an organization 
with affiliates in all 50 States. It has a hotline that 
receives approximately 9,500 calls per month and reportedly has 
helped over 1 million individuals since the founding of the 
organization in 1994.
    The floor is yours for 5 minutes, Mr. Berkowitz.

  STATEMENT OF SCOTT BERKOWITZ, PRESIDENT AND FOUNDER, RAPE, 
   ABUSE, AND INCEST NATIONAL NETWORK (RAINN), WASHINGTON, DC

    Mr. Berkowitz. Thank you, Mr. Chairman. Thanks for holding 
this hearing and including me.
    In the U.S. today, rape is a crime without consequence--
except for the victim. The Justice Department's most recent 
estimate is that about 60 percent of victims never report their 
rape to the police.
    Here we go.
    Chairman Specter. You are on.
    Mr. Berkowitz. Sorry. And since many reports do not lead to 
an arrest and many arrests do not lead to a conviction or 
prison time, the bottom line is that only about one out of 
every 16 rapists will ever spend even a single day in prison. 
Just one. As long as rapists have about a 94-percent chance of 
escaping punishment, they are not likely to be deterred.
    So putting more rapists in jail is the single most 
effective rape prevention tool that has ever existed. To 
accomplish that is going to require a sustained and focused 
effort to increase both reporting and conviction rates.
    A generation ago, the reasons that victims most often gave 
for not reporting I think spoke vividly of the way society 
viewed the crime. They feared not being believed. They feared 
being interrogated about--and blamed for--their own behavior, 
from what they were wearing to why they gave the perpetrator 
the opportunity to commit the crime. In short, they feared that 
they would be the one on trial.
    Today, the perception of many victims has evolved along 
with greater public understanding of the crime, and the reasons 
that we hear commonly now are along the lines of: they do not 
want their loved ones to know what happened. They are ashamed 
about what happened or blame themselves. Or they just want to 
put the whole thing behind them.
    Fear, or at least skepticism, of how they might be treated 
by police does still exist, but it has moved down the list of 
reasons for not reporting. And so while we need more training 
for law enforcement on treating victims appropriately, we also 
need efforts that speak to--and educate--victims about the 
importance of reporting.
    Research also indicates that victims of sexual violence who 
receive counseling are significantly more likely to report the 
crime to police.
    I want to talk briefly about law enforcement and 
prosecution. And the good news is: I think many police agencies 
have improved their handling of sex crimes in recent years. But 
there are still many problems in addition to the UCR and coding 
problems that others have discussed today.
    One problem is that many agencies deal with so few sexual 
assault cases each year, which makes it difficult to establish 
the specialized skills to investigate rape cases. One of the 
most important things Congress can do is to help local law 
enforcement tap into the expertise they need to successfully 
investigate and prosecute these cases.
    Skilled investigators operate to a great extent on instinct 
and perception, which most of the time is a good thing. But it 
can cause problems when it is based on misinformation or false 
impressions. Impressions like: a large percentage of rape 
reports are false, when the FBI tells us that is just not true.
    Or--and this is a big one that we still hear a lot--DNA 
does not matter unless the attacker was a stranger or unless we 
have a suspect identified. In fact, as the best DAs will tell 
you, having DNA evidence in hand is crucial for any prosecution 
these days. Juries expect it. It corroborates the victim's 
story. And, increasingly, it helps identify patterns of serial 
rapists, even acquaintance rapists.
    However, the data we have is insufficient for our needs and 
impedes our ability to understand the barriers to reporting, 
and why so few rapists end up in prison. For example, we would 
like to see DOJ and the States better track rape cases, from 
initial report all the way through ultimate disposition.
    Based on what we do know, there are few things that 
Congress can do right now.
    First, they can pass the SAFER Act, just introduced in the 
House, which would create a national registry of forensic 
evidence from sexual assault cases. The SAFER Act would provide 
crucial information to policymakers and rape victims, and for 
the first time open up data to the media so that we could have 
investigative reports like those that have helped us see what 
is going on in Baltimore and elsewhere. SAFER would also allow 
us to track the status of evidence testing by jurisdiction. It 
would help us eliminate the DNA testing backlog once and for 
all.
    In the upcoming reauthorization of the Justice For All Act, 
Congress should increase the percentage of Debbie Smith Act 
funds that are spent directly on DNA testing and analysis, 
incorporate the registry requirements of the SAFER Act, and set 
best practices standards for the prompt testing of all sexual 
assault crime scene evidence.
    We also need Congress' support to gather real, solid, in-
depth data about the problems I have discussed today. And then 
we need your support to help fix them.
    Overall, as Congress moves forward with the Violence 
Against Women Act and other crime legislation over the next 
year, we would like to see the overarching question be: What 
will this bill do to improve the reporting and conviction rates 
of rape cases? At the moment, 94 percent of rapists are 
escaping any form of punishment. So this should be the main 
focus of policymakers.
    Because today, violent criminals will sexually assault 
another 657 Americans. And if history is any guide, 616 of 
those criminals will wake up tomorrow morning--and every 
morning thereafter--free to start all over again.
    [The prepared statement of Mr. Berkowitz appears as a 
submission for the record.]
    Chairman Specter. Thank you, Mr. Berkowitz.
    We turn now to Ms. Eleanor Smeal, president of the Feminist 
Majority Foundation, former president of the National 
Organization for Women.
    The floor is yours for 5 minutes, Ms. Smeal.

STATEMENT OF ELEANOR CUTRI SMEAL, FEMINIST MAJORITY FOUNDATION, 
                      ARLINGTON, VIRGINIA

    Ms. Smeal. Thank you very much, Mr. Chairman, and thank you 
for holding this hearing that affects the health and safety of 
millions of women and girls in the United States.
    I am president of the Feminist Majority Foundation, which 
one of its major goals is to reduce violence against women. In 
1995, the center established the National Center for--the 
foundation established the National Center for Women and 
Policing, which is a division of the Foundation. The center 
promotes increasing the numbers of women at all ranks of law 
enforcement, both to promote equality for women and to improve 
police response to violence against women.
    I am going to summarize my testimony, and I would like to 
submit the whole testimony in the record.
    Chairman Specter. Without objection, it will be made a part 
of the record.
    Ms. Smeal. Thank you very much.
    I am going to skip over the prevalence of rape since so 
much has been said about it, but I want to underscore what was 
just said by Mr. Berkowitz about the fact that so few are 
incarcerated--rapists. In fact, according to one study, it is 
less than 1 percent. So let us just keep that in mind.
    Not only that, but the undetected rapists tend to be serial 
rapists. Two shocking studies revealed that essentially for 
rapes being committed, the undetected rapists were serial 
rapists. Most rapists are serial rapists, and they were 
committing the bulk of the rapes, between 91 and 95 percent. 
This is why rape kits are so important, and it is so important 
that they are processed. And I know this is not the feature of 
this hearing, but it shows--it is just one indicator of the 
need to further investigate rape, because if you process the 
kits, and because of the nature of serial rape, you would be 
finding people who are now going undetected and who will rape 
again.
    Another major point is that 75 percent of rapes are done by 
people--probably about 75 percent--that are acquaintance rapes. 
But that is not to be minimized because, again, there are 
patterns and these are women who have been singled out, they 
will single out other women.
    Research shows that the vast majority of rapes today 
involve both subduing the victim by alcohol or drugs. Now, the 
reason I am pointing out all these things is that it will tie 
into our recommendations of what should be done with the 
Uniform Crime Report. I want to, though, specialize in talking 
about the need to recruit more women in policing.
    Studies show that, in fact, there is a culture in the 
police departments that must be changed toward women. And I 
have worked on this problem for nearly four decades, and we 
have just not made much progress. Women are still only, 
according to the latest reports, about 12 percent of police 
departments overall and 15 percent of the largest police 
departments.
    I am now going to skip, because time is running out, to our 
recommendations. The Uniform Crime Report should include things 
it currently does not on rape. In fact, it is carnal knowledge, 
so it is omitting oral rape, anal rape. It is omitting rapes 
facilitated by drugs and alcohol. It is omitting when the 
victim is unconscious. And, I mean, it is almost ridiculous 
what it is omitting. It does not include men. It does not 
include homosexual rapes.
    Now, let us go on to the victimization study. It does not 
include children under the age of 12, and that is a large 
category of rapes, about 25 percent. Federal guidelines also 
should be issued on how you determine unfounded cases. It is 
very definite what is an unfounded case, but we know that 
police are essentially calling something as unfounded, which 
then, if the person is found to be a serial rapist, it is 
harder to prosecute them for the ones that are unfounded 
because it is believed that it was baseless or that the victim 
was lying. And so this actually compounds the problem.
    I believe and we believe that one of the most important 
things is Federal guidelines and Federal programs should 
encourage the recruitment of women police officers, and there 
are many ways of doing it, and also encourage the recruitment 
of police officers with specialized training in nursing, social 
work, and in dealing with sexual assault.
    And, of course, we think that the Violence Against Women 
Office should be--the funding should be increased, especially 
in the last----
    Chairman Specter. How much more time will you need?
    Ms. Smeal. I am ending right now. Especially in the last 8 
years, funding has been decreased.
    So we know many changes should occur, but we have got to 
start with changing the definition of rape, which is 
contributing to an under-allocation of resources.
    [The prepared statement of Ms. Smeal appears as a 
submission for the record.]
    Chairman Specter. Dr. Kilpatrick, you mentioned the issue 
of suicide, the only person to do so. Can you amplify your 
concerns there? To what extent is that a problem with rape 
victims?
    Mr. Kilpatrick. Well, women who have been a victim of rape 
are about 10 times more likely----
    Chairman Specter. Dr. Kilpatrick, I have to turn to 
Professor Dempsey. I was so busy reading her background, I left 
her out. A very distinguished background.
    Ms. Dempsey. Thank you, Senator.
    Chairman Specter. Associate professor at Villanova, 
University Lecturer in Law and Tutorial Fellow at Oxford 
University, tutor at the University College in London, and 
teaches courses involving feminist legal theory. We will come 
to that, but first your testimony, Professor Dempsey, for 5 
minutes.

 STATEMENT OF MICHELLE MADDEN DEMPSEY, ASSOCIATE PROFESSOR OF 
      LAW, VILLANOVA UNIVERSITY SCHOOL OF LAW, VILLANOVA, 
                          PENNSYLVANIA

    Ms. Dempsey. Thank you, Senator Specter, and thank you for 
convening this hearing. Going last after so many distinguished 
and experienced witnesses leads me to a position where first I 
want to say I agree, and I am going to try to say something 
that perhaps we have not touched on quite as much.
    Before addressing specific issues, however, I wish to place 
our discussion into the larger context of the criminal justice 
system as a whole. The failure to report and investigate rape 
cannot properly be understood in isolation from issues of 
failure of prosecutors to charge rape cases and to take them to 
trial, failures of juries to convict, and the failure of judges 
to impose adequate sentences upon conviction. Each step in the 
criminal justice system is directly related to the next: 
Survivors will fail to report if they believe their cases will 
not be taken seriously by police; police will fail to properly 
investigate if they believe prosecutors will not aggressively 
pursue charges in court; prosecutors will not aggressively 
pursue charges if they believe juries are unlikely to convict. 
Moreover, the entire system--and, indeed, the entire culture in 
which the system operates--will take rape less seriously when 
the sentences passed by judges do not reflect the true gravity 
of the offense.
    So all of this is to say that the topic of conversation 
here, the chronic failure to report and investigate rape, takes 
place within a broader culture and a systemic failure not only 
of the criminal justice system but of our culture as a whole 
surrounding rape.
    I will not touch on the issue of victims failing to report 
rape because I believe that has adequately been covered. I 
would, however, like to discuss the issue of investigation. I 
think as Judge Carbon rightly noted, the model that is going on 
in Philadelphia right now is a wonderful model, not only 
because it increases accountability and it obviously assists 
victims to obtain justice, but because it respects the rule of 
law. This is a matter of the principle of legality, that the 
State should be accountable to the people. And I think what is 
going on in Philadelphia is not only outstanding in 
Philadelphia--and I am proud to be a Pennsylvanian and 
delighted that that is happening--but it is a model for the 
rest of the country. I really think that needs to be exported 
as aggressively as possible.
    With respect to the issue of police misclassifying rape and 
other sex crimes as non-crimes, I would like to differentiate 
two issues we have discussed here today. One is the question of 
the UCR definition of rape, which, as I think we can all agree, 
is ridiculous. It is archaic, it is old-fashioned, it is 
insulting. And it does not capture the broad majority of rapes. 
So that is one issue. Obviously, we are all in agreement and 
singing from the same hymn sheet that the UCR definition of 
rape needs to be changed.
    In addition to that, as I commented in my written 
testimony--and I would hope that could be offered into evidence 
as well--there are real problems with the handbook of the UCR. 
The only illustrations of rape provided are stranger rape and 
gang rape. There are no illustrations provided to police to 
reflect the reality of acquaintance rape or intimate partner 
violence. And that suggests that not only the definition needs 
to be changed but that the handbook needs to be rewritten for 
this century. So that is one issue, the definition and the 
illustrations in the handbook.
    There is another issue with respect to coding, and this 
comes to the fourth issue we have been asked to consider, which 
is the problem of police unfounding rape cases. Now, this is 
the problem of coding with the UCR, and quite simply, the UCR 
program actually encourages police officers to unfound cases. 
It does this by limiting the range of categories available to 
police officers in recording case dispositions. There are only 
three options available to recording a case disposition under 
the UCR program: one is unfounded, which is to say by 
definition no crime has occurred; the other is cleared by 
arrest, which, again, by definition is to say that an arrest 
has been made and the case has been forwarded for prosecution; 
and the third option is cleared by exceptional means, which is 
by definition circumstances which preclude prosecution, for 
example, the death of the defendant or an inability to 
extradite the defendant from a foreign jurisdiction.
    There are two major problems with the coding under the UCR 
that I would like to call to our attention, and I would ask 
that perhaps this be added to your letter to the FBI so that 
they can take this into consideration as well, and that is, 
one, with respect to the issue of clearing a case by 
exceptional means, we cannot include the fact that the victim 
has withdrawn her cooperation from the case as a reason to 
clear a case by exceptional means. Victim non-cooperation in 
prosecutions does not legally preclude the State from going 
forward. The State prosecutes crime, not the victims. The UCR 
sends exactly the opposite message to local law enforcement by 
allowing that to be one of the ways in which a case can be 
cleared.
    Secondly, I think it is worth considering the possibility 
of adding a third way of disposing of a case, adding a case 
disposition which reflects that the case is founded but was 
rejected for prosecution based on inadequate evidence.
    Now, I think that is something that is worth further 
debate, but I think that the problem with unfounding cases is 
not only a problem of police misconduct but is also a problem 
of the structure of the UCR program in the way that it 
encourages officers to unfound cases in order to clear them.
    Thank you.
    [The prepared statement of Ms. Dempsey appears as a 
submission for the record.]
    Chairman Specter. Thank you, Professor Dempsey.
    Dr. Kilpatrick, I was on the question of suicide, and the 
question to you is: To what extent is that a problem for rape 
victims?
    Mr. Kilpatrick. Well, it is difficult to look at completed 
suicides in the type of research that we do because we are 
talking to people, you know, who are still alive. But if you 
look at attempted suicide, you know, in both of the studies 
that we have done with national probability----
    Chairman Specter. Well, how about a correlation between 
people who commit suicide and those who have been rape victims?
    Mr. Kilpatrick. Well, unfortunately, most rape goes 
undetected for the reasons that we have talked about today so 
that we do not know about a lot of women----
    Chairman Specter. Well, how about the rapes which are 
detected? Is there any sequence, if not a causal connection?
    Mr. Kilpatrick. Well, people who have post-traumatic stress 
disorder, as the military is finding out, are more likely to 
make suicide attempts. Rape victims are much more likely to 
make suicide attempts than comparable women who have not been 
raped. And so it is a huge risk factor. My professional opinion 
as a clinical psychologist is that there is some correlation 
there, and that----
    Chairman Specter. Ms. Smeal, you talk about changing the 
culture. How do you do that, the culture of police departments?
    Ms. Smeal. One, I think that you change the educational 
requirements, and I do think that people who are trained in 
sexual assault, who are social workers, nurses, people who----
    Chairman Specter. How do you do that with police budgets?
    Ms. Smeal. Well, unfortunately, social workers do not get 
paid that much, do they? So I do not think it would hurt the--
--
    Chairman Specter. You are talking about education.
    Ms. Smeal. Oh, well, what I mean is that, as I said, a 
graduate of a social work class does not get paid that much. 
But I also think increasing the percentage of women----
    Chairman Specter. How do you influence----
    Ms. Smeal.--is imperative.
    Chairman Specter.--police culture along the line you 
suggest? You talk about social workers, and is that realistic, 
given police department budgets?
    Ms. Smeal. Yes, I do. I think it is very realistic, because 
I do not think the average social worker in the United States 
even makes as much as the average police officer today. And I 
also think that we have to do something about recruiting more 
women into policing. We in the women's rights movement have 
been suing, as have individual women, with the pervasive 
patterns of sex discrimination in policing for 40 years, and we 
are still only--what is it?--12 percent of police officers of 
the United States.
    Chairman Specter. A couple more questions. Mr. Berkowitz--
sorry to move on, but----
    Ms. Smeal. Sure, I understand.
    Chairman Specter.--time is very limited.
    What would your recommendation be about trying to get more 
sensitivity with the interviewers, the police officers? How do 
we do that in a practical sense given the limitations of police 
budgets and it is so difficult to recruit people who have a 
vast educational background in this kind of matter?
    Mr. Berkowitz. I think the training already exists. I think 
that a lot of police departments have made tremendous progress 
on that and have implemented good training and improved the way 
they handle this. There is a lot of existing training that the 
International Association of Chiefs of Police and others offer.
    Chairman Specter. Professor Dempsey, I note among your 
courses, you teach feminist legal theory. What is feminist 
legal theory?
    Ms. Dempsey. You should come to my class. We would be 
honored to have you. It is one of the main issues we discuss. 
The way that we----
    Chairman Specter. Do you meet on weekends?
    [Laughter.]
    Ms. Dempsey. We would have a special session if you wanted 
to attend. It is a question of basically evaluating existing 
law, legal doctrine, not only the positive law on the books, as 
we say, but also law in the broader sense, the things that we 
should see to when organizing our world, whether it has been 
made part of positive law or not. So we both evaluate existing 
laws, and consider normative arguments for improving those laws 
from a feminist point of view.
    Chairman Specter. What would your advice be to women's 
organizations to persuade police commissioners, other than 
Commissioner Ramsey, to allow for transparency and allow for 
stakeholders to be involved in reviewing these cases?
    Ms. Dempsey. I think there needs to be a context in which 
these people can sit down together. I think that literally just 
being in the same room and talking face to face begins to break 
down some of the myths that each side holds against the other.
    I am an unusual bird because I am both a feminist activist 
and a former prosecutor, and I married a police officer. So I 
know you can bring these groups together, and they can--in my 
own experience as a prosecutor, we were very successful in 
getting the police on board with more aggressive domestic 
violence and sexual assault charging and prosecution simply 
because we took the time to meet together and sat down and 
talked about our concerns and educated the advocates regarding 
the law and educated the lawyers and the police officers 
regarding the advocates' concerns.
    Chairman Specter. Thank you very much, Dr. Kilpatrick, Mr. 
Berkowitz, Ms. Smeal, Professor Dempsey.
    This is a subject of enormous importance, and I regret that 
we have not had more time today to do it justice. We have not 
begun to scratch the surface. We had very distinguished panels. 
It is insufficient to say you have 5 minutes, insufficient 
totally. Senators interrupt because we only have a few minutes 
to question you, but that happens to Supreme Court nominees as 
well as you folks here today. It happens to everybody.
    It is my hope that we will stimulate some interest by 
police departments in this subject. There are a couple of 
things we can do. I think we can get the FBI to change its 
definition. We can get the FBI to change its survey. We have 
oversight on the FBI from this Committee, and I think the 
Director will respond.
    There is a lot more to rape than is in that FBI definition. 
It totally eliminates the issue of what is going on in jails 
today across the country on same-sex rape. And the issue of 
training, it would be good to get some Federal funding 
incentives to police departments. I commend what you have done, 
Commissioner Ramsey, and I would like to see more police 
departments do what you do, and I would like to see more 
women's organizations knocking on the doors--knock on their 
doors. Knock on their doors. And if they do not respond, knock 
on the mayor's door. And you do not have to knock on my door. 
You can just tap on it.
    Thank you all very much.
    [Whereupon, at 4:17 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the the record 
follow.] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
